Brian H. Fletcher
Associate Professor of Law
Co-Director,
Supreme Court Litigation Clinic
Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724.3345
bfletcher@law.stanford.edu

November 5, 2020

Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

Lange v. California, No. 20-18

Dear Mr. Harris:
The Court granted review in this case on October 19, 2020. Under Rule
25, the briefs of the petitioner and respondent are due on December 3, 2020, and
the brief of the Court-appointed amicus curiae is due on January 4, 2021. The
parties and the Court-appointed amicus have conferred and respectfully request
that the time to file the briefs of petitioner and respondent (and the joint
appendix) be extended to December 4, 2020. We also respectfully request that
the time to file the brief of the Court-appointed amicus be extended to January
8, 2021.
Thank you for your time and assistance in this matter.
Very truly yours,

Brian H. Fletcher

Counsel for Petitioner
cc: All counsel

Community Law v Criminal Defense v Environmental Law v Immigrants' Rights
International Human Rights and Conflict Resolution v Juelsgaard Intellectual Property and Innovation
Organizations and Transactions v Religious Liberty v Supreme Court Litigation v Youth and Education Law Project

